 Office of Inspector General
 Audit Report




EPA CAN DO MORE TO HELP
  MINIMIZE HARDROCK
   MINING LIABILITIES


      E1DMF6-08-0016-7100223



           June 11, 1997
Inspector General Division
  Conducting the Audit:        Central Audit Division
                               Denver, Colorado

Regions Covered:               Regions 5, 8, 9, 10

Headquarters Program Offices
  Involved:                    Office of Water

                               Office of Solid Waste and Emergency Response

                               Office of Enforcement and Compliance Assurance
MEMORANDUM

SUBJECT:       EPA Can Do More To Help
               Minimize Hardrock Mining Liabilities
               Report No. E1DMF6-08-0016-7100223

FROM:          Michael D. Simmons
               Deputy Assistant Inspector General
                For Internal Audits

TO:            Robert Perciasepe
               Assistant Administrator
                For Water

        Attached is our report entitled EPA Can Do More To Help Minimize Hardrock Mining Liabilities.
We found that critical gaps exist in federal and state statutory and regulatory authority to require adequate
financial assurances at hardrock mines. We also found that EPA could improve implementation of its
existing statutory authority and use non-regulatory tools, such as partnerships, more effectively to
minimize the financial and environmental impacts of hardrock mining.                   The report contains
recommendations for EPA to improve its relationship with state and federal land management agencies
and to assist them in revising their authority to require adequate financial assurance for hardrock mines.
We also recommend you complete and publish a hardrock mining strategy to provide Agencywide
direction on mining issues.

ACTION REQUIRED

        In accordance with EPA Order 2750, you, as the action official, are required to provide us a written
response to this report within 90 days of the final audit report date. While several EPA offices share
responsibility for hardrock mining activities, we understand that the Deputy Administrator has designated
you to coordinate EPA’s hardrock mining activities. Therefore, we ask that you as the action official for
this report consolidate the responses for all recommendations. For corrective actions planned but not
completed by the response date, reference to specific milestone dates will assist us in deciding whether
to close the report.

        This report contains findings that describe issues the Office of Inspector General (OIG) has
identified and corrective actions OIG recommends. This report represents the opinion of the OIG, and
the findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with established
EPA audit resolution procedures.

       We have no objection to the release of this report to any member of the public. This report
contains no confidential business or proprietary information that cannot be released to the public.
       Should you or your staff have any questions regarding this report, please contact me at (202) 260-
4945 or Bennie Salem, Divisional Inspector General for Audit in our Kansas City office, at (913) 551-
7878. Please refer to the report number on all related correspondence.

Attachment
                     EXECUTIVE SUMMARY

PURPOSE              The Environmental Protection Agency (EPA), Region 8, requested an
                     audit of the environmental and financial liabilities that could result from
                     active hardrock mines. The Region was concerned that the low level of
                     financial assurance requirements at active and future hardrock mine sites
                     would leave EPA in the position of assuming responsibility for cleanup
                     of future abandoned hardrock mines under the Superfund program.


BACKGROUND           Significant changes in mining practices over the last 20 years have led
                     to a resurgence of mining activities in many areas of the country. Closed
                     and abandoned mines could result in environmental problems and
                     sizable cleanup costs for the federal taxpayers.

                      Mining activities are regulated under federal and state authorities.
                     Federal statutory authority is spread among several agencies with no one
                     agency having overall statutory responsibility. Most states with
                     significant hardrock mining have established their own statutory
                     programs and regulate mine activities through mine permits.

                     EPA does not have specific statutory authority to address the potential
                     environmental problems at active hardrock mines.


RESULTS IN BRIEF     We found critical gaps in some federal and state statutory and regulatory
                     authorities to require adequate financial assurances at hardrock mines.
                     This lack of adequate financial assurances could result in EPA having
                     to assume responsibility for cleaning up some hardrock mine sites in the
                     future. EPA had not effectively implemented its existing statutory
                     authorities or used non-regulatory tools, such as partnerships, to
                     minimize the environmental impacts of hardrock mining and help
                     federal and state agencies eliminate financial assurance gaps.




PRINCIPAL FINDINGS   Federal and state land management agencies’ authorities to require
                     environmental performance standards and financial assurances at
                     hardrock mines varied, leaving critical gaps in bonding requirements.
                     Unreasonably low bond ceilings did not allow adequate financial
                     assurance coverage for hardrock mining on some state and private lands.

                                        v               E1DMF6-08-0016-7100223
                           As a result, EPA may become liable for the considerable costs of
                           cleaning up mines abandoned by the companies that operated them.

                           EPA could have been more effective in implementing its own statutory
                           and regulatory authorities to prevent hardrock mining pollution
                           problems. While some EPA regions have developed a cross-media
                           approach for addressing hardrock mining issues, EPA as a whole has
                           been slow to develop and implement a comprehensive hardrock mining
                           strategy and effectively coordinate and address specific hardrock mining
                           issues.

                           Even though partnering is an important part of EPA’s 5-year strategic
                           plan, EPA had not consistently engaged in effective partnerships. EPA
                           cited a lack of resources, expertise, and management commitment for
                           not participating more actively with federal and state agencies. EPA
                           needed to invest in partnerships to help prevent problems rather than
                           wait until problems occurred and respond under its Superfund
                           authorities.


RECOMMENDATIONS            We recommend the Assistant Administrator for Water encourage
                           regions to improve their relationships with federal and state land
                           management agencies to help eliminate existing gaps in the Mining Law
                           of 1872 and federal and state bonding requirements. The Assistant
                           Administrator should establish and implement a national hardrock
                           mining strategy to provide direction for EPA’s more effective use of its
                           statutes to address hardrock mining issues and develop stronger
                           partnerships with other hardrock mining stakeholders. The Assistant
                           Administraor should develop a critical core of cross-media mining
                           expertise and encourage proactive, timely involvement in hardrock
                           mining environmental issues.




EPA COMMENTS AND EPA generally agreed with our findings and recommendations. EPA
OIG EVALUATION   offered comments to clarify some issues and recommendations, and we
                 have modified our report as appropriate. We summarized EPA
                 comments at the end of each finding chapter and included the full text
                 of the comments as Appendix I.




                                            vi               E1DMF6-08-0016-7100223
THIS PAGE INTENTIONALLY LEFT BLANK.




                          E1DMF6-08-0016-7100223
                                                     TABLE OF CONTENTS

                                                                                                                                           Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                   SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                   PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2        CRITICAL FINANCIAL ASSURANCE GAPS REMAINED IN HARDROCK
           MINING REGULATIONS AND POLICIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   MINING LAW OF 1872 RESULTED IN CRITICAL GAPS . . . . . . . . . . . . . . . . . . . . 7

                   FINANCIAL ASSURANCES ARE ESSENTIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                   FEDERAL LAND MANAGEMENT AGENCIES HAVE ADEQUATE
                   AUTHORITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   REGULATORY COVERAGE ON STATE AND PRIVATE LAND IS
                     LESS CERTAIN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                   CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                   RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                   EPA COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

3        EPA COULD BE MORE EFFECTIVE IN USING ITS AUTHORITIES TO ADDRESS
         HARDROCK MINING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15




                   EPA HAS LIMITED AUTHORITY OVER MINING . . . . . . . . . . . . . . . . . . . . . . . . 15

                   EPA NEEDS A STRATEGY AND STRONG NATIONAL LEADERSHIP

                                                                                            E1DMF6-08-0016-7100223
             TO ADDRESS ITS HARDROCK MINING ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . 18

             CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

             RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

             EPA COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

4    MORE EFFECTIVE PARTNERSHIPS CAN HELP PREVENT MINING
POLLUTION AND MINIMIZE GOVERNMENT FINANCIAL LIABILITIES . . . . . . . . . . . . . . . . 23

             EPA'S STRATEGIC PLAN EMPHASIZED PARTNERING . . . . . . . . . . . . . . . . . . 23

             EARLY EPA INVOLVEMENT MAY AVOID UNFUNDED LIABILITIES. . . . . . . 24

             EPA NEEDS TO ACCEPT AND SEEK MORE PARTNERSHIP OPPORTUNITIES24

             CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

             RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

             EPA COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

APPENDICES

 APPENDIX I:           AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

 APPENDIX II:         SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

 APPENDIX III:         PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

 APPENDIX IV:          ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

APPENDIX V:            DISBRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39




                                                                                   E1DMF6-08-0016-7100223
                           Chapter 1

                     INTRODUCTION

PURPOSE        The Environmental Protection Agency (EPA), Region 8, requested an
               audit of the environmental and financial liabilities that could result from
               active hardrock mines. The Region was concerned that the low level of
               financial assurance requirements at active and future hardrock mine sites
               would leave EPA in the position of assuming responsibility for cleanup
               of abandoned mines under the Superfund program. Without adequate
               environmental performance standards and financial assurances
               established prior to permitting mines, new sites could become the federal
               government's responsibility.

               Our overall objective was to determine if adequate federal and state
               statutory and regulatory authorities were in place to minimize the
               environmental damage and unfunded financial liabilities resulting from
               active hardrock mining. Our specific audit objectives were to answer the
               following questions:

               --      Do current federal and state statutory and regulatory
                       requirements include environmental performance standards and
                       adequately provide for financial assurance to restore active mine
                       sites to an acceptable condition?

               --      Has EPA effectively used existing environmental statutes and
                       regulations to prevent mining pollution and minimize potential
                       government financial liabilities?

               --      Has EPA established effective partnerships to develop
                       environmental performance standards and appropriate financial
                       assurance requirements for active and future mine sites?


BACKGROUND   Significant changes in mining practices over the last 20 years have
             led to a resurgence of mining activities in many areas of the
             country. Although much of the hardrock mining has been
             historically concentrated in the western states, hardrock
             mines are operating or planned throughout the country including
             the states of Maine, Michigan, South Carolina, and Florida.

             No national inventory of the number or character of active
             hardrock mines exists. Estimates of active hardrock mines on
             federal lands ranged from 2,000 to over 10,000. We could find no


                                  1               E1DMF6-08-0016-7100223
reliable overall estimate of active mine sites on state and private
lands.

Mining activities are regulated under federal and state authorities.
Federal statutory authority is spread among several agencies with
no one agency having overall regulatory responsibility. Most
states with significant hardrock mining have established their own
statutory programs and regulate mine activity through mine
permits.

Although EPA does not have comprehensive regulatory authority
over mining, EPA does have statutory authority that can and has
been used to address the potential environmental problems at
active hardrock mines. EPA also has the responsibility to respond
to and fund the cleanup of many abandoned mines. Currently, 67
of these mines are on EPA’s Superfund National Priority List
(NPL). Federal cleanup costs for these hardrock mine sites are
significant. Of all NPL sites, mines are the largest and most costly
to clean up, according to one Office of Solid Waste and
Emergency Response (OSWER) official. For example, EPA
estimated it will spend about $150 million from the Superfund
Trust Fund to clean up the Summitville mine in Colorado. It
estimated it will cost about $20 billion to clean up the mine sites
currently on the NPL.

Statutory authorities that provide EPA authority to prevent
pollution at active hardrock mines include the Clean Water Act
(CWA), the Resource Conservation and Recovery Act (RCRA),
the Clean Air Act , the Safe Drinking Water Act, the Toxic
Substances Control Act, and the National Environmental Policy
Act (NEPA). However, many active mines may not be subject to
these statutes.

The most significant statutes for this report are CWA, RCRA, and
NEPA. The CWA National Pollutant Discharge Elimination
System (NPDES) Program provides for permits to limit the
discharge of pollutants into United States waterbodies. RCRA
provides for regulation of hazardous and solid wastes. NEPA
provides for environmental review and public disclosure of the
potential impacts to the environment that could be caused by a
planned activity on federal lands, such as hardrock mining.

RCRA amendments have limited EPA's ability to regulate wastes
generated at hardrock mines under RCRA. The Solid Waste
Disposal Act Amendments of 1980 included the Bevill
Amendment, which required EPA to study mining wastes and

                     2               E1DMF6-08-0016-7100223
determine if regulation under RCRA Subtitle C was warranted.
EPA issued a regulatory determination in 1986 that certain
hardrock mining wastes (i.e., those wastes generated by the
removal and treatment of the ore to concentrate its valuable
constituents) should not be regulated as hazardous wastes under
Subtitle C at that time. However, EPA subsequently planned to
develop an enhanced Subtitle D program to manage mining
wastes.

While several EPA offices share the authority to regulate hardrock
mining activities, the Assistant Administrator for the Office of
Water (OW) has responsibility to develop an agency-wide
hardrock mining strategy. According to EPA, hardrock mining
workgroups at the national and regional levels addressed hardrock
mining issues as early as 1991. In 1994, the Deputy Administrator
formally designated OW take the lead in the development of
EPA’s hardrock mining strategy. As a result of the Deputy
Administrator’s decision, OW established a hardrock mining
workgroup in 1994 composed of experienced EPA regional and
headquarters staff to develop an EPA hardrock mining framework.
Between 1994 and 1996, EPA distributed two drafts of its
hardrock mining framework to federal land management agencies,
states, industry, and environmental organizations for comment.
The draft hardrock mining framework described how EPA could
best use its limited statutory authority and partner with other
regulatory agencies to protect the environment from degradation
resulting from hardrock mining.

Many states have recently increased their regulation of the
hardrock mining industry. Much of the recent regulatory activity
resulted in part from the widespread use of the heap leaching
method of extracting precious metals from the ore. Most
knowledgeable mining experts agree that cyanide and


most other leaching agents, if properly controlled, are manageable,
although the long term effects on public health and the
environment are not well understood.

Mine wastes represent a significant       THE MOST
long term threat to the environment       SERIOUS
from mine tailings and fugitive dust.     ENVIRONMENTAL
However,     the     most     serious     THREAT IS THE
environmental threat of current           RISK OF ACID
hardrock mining methods is the risk of    MINE DRAINAGE.
acid mine drainage. Acid mine

                     3               E1DMF6-08-0016-7100223
                          drainage is often generated from waste rock piles or other mining
                          wastes. Water and oxygen flowing over and through the metal-
                          rich, sulfide rock exposed by mining activities can contaminate
                          surface and ground waters and damage aquatic life. Predicting the
                          probability and extent of acid mine drainage at a specific mine is
                          difficult because drainage may not occur until long after active
                          mining ends. Once acid mine drainage starts, it may never stop
                          without intervention. In some cases, reclamation may require
                          water treatment in perpetuity.


S C O P E   A N D We conducted our fieldwork from January 1996 to
METHODOLOGY       November 1996. We conducted our audit in accordance with
                  Government Auditing Standards (1994 Revision) and included tests and
                  other auditing procedures as we considered necessary. Other than the
                  issues discussed in this report, no other significant issues came to our
                  attention that warranted expanding the scope of our audit.

                            We limited our review to hardrock mines using the heap leaching
                            method of ore extraction. To answer our three objectives, we met with
                            various federal, state, and industry stakeholders responsible for the
                            permitting and monitoring of hardrock mines. We consulted with the
                            U.S. Department of Agriculture (USDA), Forest Service and the U.S.
                            Department of the Interior (DOI), Bureau of Land Management in
                            Washington, D.C. These two federal land management agencies control
                            about 83 percent of federal land subject to mining. We also met with
                            officials at the Forest Service field office at the Payette National Forest
                            in Idaho and the Bureau of Land Management field office in Nevada to
                            obtain an understanding of how the field offices operate. We met with
                            various agencies in the States of Alaska, California, and Idaho. We met
                            with the Alaska Miners Association, Nevada Mining Association, the
                            National Mining Association, and individual mine operators to obtain an
                            overall understanding of how the mining industry perceived the
                            effectiveness of current mining regulations and EPA’s role in hardrock
                            mining. We toured mine sites in Alaska, California, and Idaho.

                            To obtain an understanding of EPA’s authority and role in hardrock
                            mining, we conducted fieldwork at EPA headquarters in OW and the
                            OSWER, Enforcement and Compliance Assurance (OECA), and
                            General Counsel. We also conducted fieldwork at EPA Regions 5, 8, 9,
                            and 10. We selected Region 5 because EPA had identified a problem
                            mine in Michigan. We selected Regions 8, 9, and 10 because these
                            Regions included the 12 western states containing about 99 percent of
                            all U.S. hardrock mining claims.

                            We have included detailed scope and methodology information in

                                               4               E1DMF6-08-0016-7100223
                        Appendix II.


PRIOR      A U D I T Several government audit organizations, including the General
COVERAGE             Accounting Office (GAO), DOI/Office of Inspector General (OIG), and
                     USDA/OIG, have recently conducted audits of the environmental
                     impacts of hardrock mining and of EPA’s working relationships with its
                     stakeholders. We have included a summary of the most pertinent of
                     these reports in Appendix III.




                                         5             E1DMF6-08-0016-7100223
THIS PAGE INTENTIONALLY LEFT BLANK




                6         E1DMF6-08-0016-7100223
                             Chapter 2
                CRITICAL FINANCIAL ASSURANCE GAPS
                  REMAINED IN HARDROCK MINING
                    REGULATIONS AND POLICIES
                             Environmental performance standards and adequate financial assurances
                             must be incorporated in hardrock mine permits to ensure protection of
                             human health and the environment and minimize future cleanup costs.
                             Although federal and state land management agencies have varying
                             authorities to require environmental performance standards and financial
                             assurances at hardrock mines, some critical gaps remained in federal and
                             state coverage. Unreasonably low statutory bond ceilings and other
                             limitations significantly reduced federal and state land managers’
                             abilities to include adequate financial assurances in mine permits. These
                             gaps in coverage could result in environmental damage and unfunded
                             government liabilities.


MINING LAW OF 1872 A critical gap in financial assurances for hardrock mining on federal
RESULTED IN CRITICAL lands results from a provision of the Mining Law of 1872. Disparities
GAPS                 between federal and state bonding requirements for mined lands have
                     caused concerns that a land patenting provision of the 1872 law provides
                     mine operators relief from the stricter federal bonding requirements.

                             The Mining Law of 1872 provided for miners to purchase, or “patent,”
                             federal land for a nominal sum of $2.50 to $5.00 per acre, if a hardrock
                             mineral deposit was discovered on the land. Upon patenting, the mining
                             claim became a fully recognized private interest that could be traded or
                             sold. GAO estimated in 1992 that over 3.2 million acres of federal land
                             had been patented under the 1872 law.

                             Environmental concerns were not a consideration when the law was
                             written. Consequently, federal land management agencies and states
                             have developed their own performance standards and bonding
                             requirements to provide for protection and restoration of mined land. In
                             the 1970's, the Forest Service and the Bureau of Land Management
                             developed regulations to prevent any unnecessary or undue degradation
                             of federal lands under their control. While these regulations reduced
                             some of the most critical gaps for protection of federal lands from the
                             impacts of hardrock mining, the right of miners to patent the land can
                             still bring about undesirable environmental consequences. The primary
                             concern is that some states’ regulations have not kept pace with federal
                             regulations in requiring sufficient financial assurances to restore the land
                             if owners cannot do so.


                                                7                E1DMF6-08-0016-7100223
                             According to a 1989 GAO report, the patent provision of the Mining
                             Law of 1872 is counter to the provisions of more recent laws governing
                             hardrock mining on specific lands, such as the Alaska National Interest
                             Lands Conservation Act of 1980 and the Military Lands Withdrawal Act
                             of 1986. These laws provide for the accommodation of mining while
                             providing for the federal government to retain title to the land.
                             According to GAO, “[u]se, but not ownership, may be granted for as
                             much land as may be necessary to mine a claim.” Also, various laws
                             subsequent to the
                             mining law provided for lands used to extract fuel minerals and other
                             common variety minerals to remain in public ownership.
                             Federal retention of land would provide for better protection of the
                             environment under the stricter federal regulations.

                             The mining law has been very successful in accomplishing its original
                             intent to encourage and reward discovery of economically valuable
                             minerals. Consequentially, the potential for considerable environmental
                             damage has led some federal and state land managers as well as EPA to
                             agree that the Mining Law of 1872 is outdated and should be revised.
                             We agree with EPA officials who believe that EPA should work with
                             DOI in their efforts to address the land ownership provisions of the
                             Mining Law of 1872.


F I N A N C I A L Federal and state agencies should ensure that mine operating permits
ASSURANCES    ARE include financial assurances to restore a mine site if the environmental
ESSENTIAL         performance standards do not adequately protect the site from
                  contamination and the operator is unable or unwilling to do so. EPA
                  officials strongly agreed that financial assurance limits now in place at
                  mines are, in large part, inadequate. However, EPA has no direct
                  statutory authority to address this pressing problem.

                             The number of hardrock mines using environmentally sensitive
                             technologies (e.g., heap leaching with cyanide) has grown rapidly during
                             the last 20 years. If the waste streams from new mining technologies are
                             not properly controlled, they could have a
                             significant detrimental impact on the environment. Without adequate
                             financial assurances available to respond to these sites in the future, EPA
                             may have to assume responsibility to restore sites under its statutory
                             requirements.


FEDERAL      L A N D The hardrock mining statutory authorities of the two largest federal land
M A N A G E M E N T management agencies, the Forest Service and the Bureau of Land
AGENCIES      H A V E Management, generally provide for establishment of environmental

                                                8               E1DMF6-08-0016-7100223
ADEQUATE AUTHORITY performance standards and adequate financial assurances to protect the
                   environment. The Forest Service considers financial assurance for all
                   mine sites. The Bureau of Land Management recently finalized
                   regulations that require financial assurances for all sites except those for
                   sites having negligible land disturbance.

                              Also, NEPA extends federal agencies’ administrative responsibilities
                              over mining. NEPA requires federal agencies to assess the impacts their
                              activities may have on the quality of the human environment. Before
                              approving a mining activity, federal land management agencies must
                              prepare an environmental analysis of the environmental impacts of the
                              activity. The environmental analysis on major activities is made
                              available for review and comment to other federal and state agencies,
                              including EPA, which have environmental oversight or regulatory
                              responsibility.


R E G U L A T O R Y           In contrast to federal agencies, the adequacy of statutory and regulatory
COVERAGE ON STATE             requirements for mines on state and private lands appears less certain.
AND PRIVATE LAND IS           Seven of the eight states we reviewed required environmental
LESS CERTAIN                  performance standards that would provide for protection of the
                              environment during active mining operations, and all states required
                              mine closure plans. However, of the states we reviewed, most statutes
                              and regulations still seriously limited financial assurances. For example,
                              only 2 of the 8 states provided for 100 percent bonding for the estimated
                              costs of addressing toxic contamination.




                                                        TABLE
                                            SUMMARY OF STATE REQUIREMENTS

                                             ENVIRONMENTAL
                                              PERFORMANCE        REQUIRED      FULL BONDING
                                               STANDARDS         CLOSURE
                                                                   PLAN

                               ALASKA                YES            YES             YES

                               ARIZONA               NO             YES             NO

                               CALIFORNIA            YES            YES             YES

                               COLORADO              YES            YES             NO

                               IDAHO                 YES            YES             NO

                               MONTANA               YES            YES             NO

                               NEVADA                YES            YES             NO




                                                 9               E1DMF6-08-0016-7100223
 SOUTH                 YES            YES              NO
 DAKOTA

 TOTALS              7 YES            8 YES           2 YES
                     1 NO                              6 NO


Seven of the states reviewed require environmental performance
standards in the permit to avoid future problems. Alaska, for example,
had instituted some particularly effective performance standard
requirements that protected the State from adverse environmental
impacts created by new mining operations. The State required the parent
corporation to guarantee in writing the environmental performance of a
mine operated as a subsidiary corporation. This requirement should help
discourage the owners from abandoning the mine when serious
environmental problems occur. Also, Alaska required major mine
developers to contract with independent consultants to conduct periodic
environmental audits and to report the results to the State.

Limitations in some states' bonding
requirements could result in unfunded      IDAHO AND
government liabilities. For example,       SOUTH DAKOTA
Nevada required limited bonding for site   REQUIRE
reclamation (recontouring, etc.) which     UNREASONABLY
included no bonding for addressing toxic   LOW BONDING
contamination at the site prior to site    FOR CYANIDE.
closure. Alaska had a $750 per acre limit
for reclamation. California, Idaho, and
South Dakota bond for reclamation and for contingencies and closure,
but Idaho and South Dakota had unreasonably low bond ceilings of
$100,000 and $500,000, respectively, at mine sites that used cyanide.

EPA officials stated that reclamation of a site must include assurances
that toxic and hazardous wastes at mine sites are cleaned up as part of
site reclamation. Often reclamation is limited to surface recontouring
and reseeding. Although many states had mine reclamation statutes and
regulations, not all state statutes included requirements to address toxic
contamination at a site prior to closure. As noted earlier, Nevada
statutes did not require removal of toxic contamination prior to site
closure. In comparison, the Forest Service and the Bureau of Land
Management regulatory definitions of reclamation appeared to be
comprehensive and included measures to isolate, remove, or control
toxic material from a site prior to closure.

Restrictions on states’ abilities to require reasonable levels of financial
assurance could result in states’ inabilities to adequately respond to a
catastrophic release of hazardous contaminants to the environment, such
as occurred at the Summitville mine site in Colorado. If a state is unable

                  10               E1DMF6-08-0016-7100223
                  to respond, EPA may have to assume responsibility under Superfund.

                  In some instances where state bonding requirements were less stringent
                  than federal requirements, mine owners could avoid the more stringent
                  federal bonding requirements by converting the federal land to private
                  land. The potential adverse effect of converting the land was illustrated
                  by two mine operations in Idaho which applied to convert their land
                  from federal to private land. The Kinross mine in Idaho was on federal
                  land under the jurisdiction of the Bureau of Land Management. The
                  mine used a cyanide heap leaching process. The site already generated
                  acid mine drainage and will eventually discharge contaminated water.
                  The Bureau of Land Management required financial assurances in the
                  amount of $9.9 million for the mill site. However, the mine operator
                  applied to convert, or “patent,” the land. As a result, Idaho’s $100,000
                  bonding limit for cyanide operations could replace the $9.9 million
                  federal bonding requirement. Likewise, the Thompson Creek mine in
                  Idaho requested to patent the land on which it mines. This transfer
                  would reduce its bonding requirements from $12 million to the $100,000
                  cyanide bond limit, although the risk of acid mine drainage and the
                  potential threat to the environment remains the same. If the mine
                  operators are unable or unwilling to restore the site in the future, the
                  State
                  could be left with large contaminated sites generating acid mine drainage
                  that will require large infusions of money to remediate the land from
                  outside sources including EPA.


CONCLUSION        Hardrock mining activities could adversely impact the environment and
                  result in cleanup costs that may have been avoided. Land patent
                  provisions in the Mining Law of 1872 contribute to federal authorities’
                  limited abilities to require adequate financial assurances. Although
                  some state authorities provided for adequate financial assurance for
                  hardrock mines, other state statutes and regulations did not. As a result
                  of bonding ceilings, mine operators may not be held to the financial
                  assurance requirements that would be commensurate with risk
                  associated with their mining operations. One key to consistent cleanup
                  is to reach agreement on a common definition of reclamation that
                  includes cleaning up toxic contamination prior to site closure.


RECOMMENDATIONS   We recommend the OW Assistant Administrator coordinate with the
                  appropriate Assistant Administrators to:

                  2-1.   Assist DOI in its effort to address the issue of the land ownership
                         provisions of the Mining Law of 1872.


                                    11              E1DMF6-08-0016-7100223
                           2-2.   Work with states that have unreasonably low bond ceilings or
                                  other inappropriate limitations on their authorities to seek
                                  modification of their authorities.

                           2-3.   Work collaboratively with the responsible federal and state
                                  agencies to ensure that the mines that pose the highest
                                  environmental and financial risks have adequate federal and state
                                  bonding to cover future cleanup costs.

                           2-4.   Work collaboratively with federal and state agencies to reach
                                  agreement on a common definition for reclamation that includes
                                  addressing toxic contamination prior to site closure.




EPA COMMENTS AND EPA agreed that it should work directly with DOI to improve financial
OIG EVALUATION   assurance at mines operating on federal lands. However, EPA asked that
                 we specifically identify how EPA should assist DOI in addressing issues
                 raised by land ownership provisions of the Mining Law of 1872. We
                 believe EPA could assist by evaluating past and potential future
                 environmental effects of mines converted from federal to private
                 ownership. However, we believe EPA and DOI staff are in the best
                 position to identify specific contributions appropriate for EPA.

                           EPA stated that our recommendations were consistent with its hardrock
                           mining framework. EPA agreed it must work with and provide
                           assistance to other stakeholders to improve the effectiveness of mining
                           programs. However, we cannot evaluate whether the draft EPA
                           hardrock mining framework will fully satisfy our recommendations
                           because the framework has not been completed. EPA should provide a
                           timeframe for completing and implementing the framework. Also, EPA
                           should ensure that adequate resources and expertise are available to meet
                           the demand before EPA offers to provide assistance to others.




                                             12              E1DMF6-08-0016-7100223
THIS PAGE INTENTIONALLY LEFT BLANK




               13         E1DMF6-08-0016-7100223
                                         Chapter 3

                   EPA COULD BE MORE EFFECTIVE IN
                      USING ITS AUTHORITIES TO
                     ADDRESS HARDROCK MINING


                             EPA could be more effective in implementing its authorities to help
                             prevent specific hardrock mining pollution problems. While EPA has
                             no comprehensive statutory authority to regulate mining, it does have
                             statutory authorities to help reduce potential environmental problems at
                             individual mines. Some EPA regions have developed a cross-media
                             approach to hardrock
                             mining, but EPA as a whole has been slow to develop and implement a
                             comprehensive hardrock mining strategy and effectively coordinate
                             cross-media hardrock mining issues.


EPA HAS LIMITED EPA has attempted to address pollution prevention at individual mines
AUTHORITY  OVER either through state authorized environmental programs or direct
MINING          management. EPA has media-based authorities that can be and have
                been applied to pollution prevention at individual mines. Also, EPA has
                administrative statutes, such as NEPA, that can be used to help prevent
                mining pollution problems. However, EPA has no comprehensive
                statutory authority to regulate mining and oversee development of
                environmental performance standards and financial assurances at
                individual mines.

EPA’s Implementation of The EPA media-based program most often applied to hardrock mining
CWA Varied              is the CWA NPDES program, which calls for permits to limit the
                        discharge of pollutants into U. S. waters. EPA operates the NPDES
                        program through authorized state programs, or less frequently, through
                        direct management in states which do not have an authorized program.
                        EPA directly managed the NPDES program in three of the eight states
                        we reviewed (Alaska, Arizona, and Idaho).



                             CWA NPDES has limited application because many hardrock mines
                             have been designed as non-discharge facilities and require
                             no NPDES permits. Many of these mines are located in arid climates
                             (e.g., Nevada and Arizona) where water is scarce and the mines recycle

                                              14               E1DMF6-08-0016-7100223
                             water for use in operations. Another serious limitation of the CWA is
                             that it provides protection for surface waters only. Unless a connection
                             with surface water can be demonstrated, groundwater is not subject to
                             regulation under the CWA.

                             Where NPDES is applicable, EPA has not always provided for adequate
                             oversight or technical assistance to important mining states. For
                             example, Region 9 did not provide adequate attention to the NPDES
                             program in Arizona, an important mining state where EPA directly
                             managed the NPDES program. Region 9 staff told us that the Region
                             had not fully evaluated all the necessary site-specific factors before
                             issuing NPDES permits to mine operators. Permit writers and inspectors
                             needed to visit a mine site to adequately determine appropriate NPDES
                             permit conditions, but were generally unable to do so due to limited
                             resources.

EPA Had Not Pursued While EPA had developed some non-regulatory tools, it had not pursued
Mining        Regulatory development of a mining waste regulatory program under RCRA, even
Opportunities Under RCRA though it had announced its intentions to do so in the mid-1980s. EPA
                         reported to Congress in 1985 that mining had created serious
                         environmental damage and announced its intention in 1986 to develop a
                         RCRA regulatory mining program. EPA could have developed such a
                         program either under RCRA Subtitle D or Section 3004(x).

                            Eleven years after EPA announced this intention to develop Subtitle D
                            regulations establishing a mining program, EPA had not affirmatively
                            acted. Such a program could have required specific environmental
                            performance standards to prevent pollution from heap leach piles, tailing
                            piles, and similar mining pollution sources. The serious mining
                            environmental damages identified in the 1985 report to Congress
                            continue to this day, according to an EPA official.

                            EPA also could have, but had not, proposed regulations under RCRA’s
                            Hazardous and Solid Waste Amendments of 1984 Section

                            3004(x). This section provided EPA the flexibility to modify Subtitle C
                            requirements for certain mining wastes.

                            However, EPA officials stated that either approach may still not provide
                            EPA with adequate oversight and enforcement authority. On the other
                            hand, states may now have adequate authority. Seven of the eight states
                            we reviewed require environmental performance standards and many
                            mining states strengthened their mining regulations since 1985.
                            However, we did not assess the adequacy of states’ implementation of
                            their authorities.


                                              15               E1DMF6-08-0016-7100223
                             EPA’s non-regulatory tools included guidance, RCRA technical support
                             on mining environmental analyses, and support on mining enforcement
                             actions. EPA recently issued a Federal Register notice to seek public
                             comment on whether EPA should reevaluate the extent to which mining
                             wastes should be regulated under RCRA Subtitle C.

EPA’s NEPA Input Is Too EPA has also been actively involved in hardrock mining through its
Late                    NEPA authority. However, EPA’s role has been as a reviewer of
                        completed environmental analyses rather than as an early assessor of the
                        potential environmental impacts of a planned mining operation.
                        Although EPA officials stated that environmental analyses and public
                        disclosure served as an important forum to limit negative mining
                        environmental impacts, a National Interagency Coordinating Committee
                        workgroup found serious problems with the NEPA process and
                        recommended earlier EPA involvement. Federal regulations emphasize
                        agency cooperation as early as possible in the NEPA process, and
                        specifically require cooperating agencies to participate in the scoping
                        phase to avoid adversarial comments later.

                             Bureau of Land Management officials, state land management agency
                             representatives in all the states we visited, and industry representatives
                             criticized EPA for not participating as early or as often as they think is
                             necessary. Late EPA involvement resulted in delays, increased costs,
                             and deteriorated working relationships. For example, Region 9 frequently
                             returned the environmental analyses without commenting because the one
                             staff person assigned for this review process claimed she does not have
                             time to review more than the most significant analyses. Although NEPA
                             requires significant staff time, according to EPA headquarters

                             officials, it may be EPA’s best opportunity to be proactive in preventing
                             pollution at active mines.


EPA NEEDS A STRATEGY          EPA has recognized for some years that it needed a more coordinated
AND STRONG NATIONAL           approach to effectively deal with hardrock mining issues. However,
LEADERSHIP        TO          EPA has yet to develop it. Organizational and funding barriers
ADDRESS          ITS          prevented EPA from being as successful as it might have been in cross-
HARDROCK      MINING          media issues that affect hardrock mining.
ISSUES
                              OW has not timely developed and implemented a comprehensive
                              hardrock mining strategy. The Deputy Administrator formally
                              designated OW to take the lead in the development of EPA’s hardrock
                              mining strategy. Although OW drafted a hardrock mining framework,
                              it still did not have a completed, approved mining strategy. According
                              to EPA officials, senior EPA management had not yet formally reviewed
                              and approved the latest draft of the hardrock mining framework. The

                                                16              E1DMF6-08-0016-7100223
             framework would provide the basis for developing a hardrock mining
             strategy.

             Regional EPA staff stated they were skeptical regarding OW’s
             commitment to a mining strategy. Their skepticism was reinforced in
             late 1996 when OW lost its staff charged with finalizing the hardrock
             mining framework and assigned new staff unfamiliar with mining issues.
             This unfamiliarity may have contributed to the loss of momentum in the
             development of a hardrock mining strategy.

             Some regions have attempted to overcome the problems of addressing
             a cross-media activity like mining in an organization that is
             predominantly organized by media. Regions 8 and 10 have made
             significant progress in overcoming these organizational barriers and
             funding constraints. They have appointed full-time mining coordinators,
             established hardrock mining workgroups to address mining issues, and
             developed regional hardrock mining strategies. Regions 8 and 10 have
             also participated on special projects with other stakeholders to address
             specific sites such as the Clear Creek community-based watershed
             project in Colorado and the Coeur d’ Alene Basin Restoration Project in
             northern Idaho. In October 1995, Region 8 reorganized to be more
             responsive to the multimedia and partnership goals in EPA’s strategic
             plan. Region 8’s new structure placed programs and functions in new
             organizations that will enhance multimedia opportunities. In 1996,
             Region 8 identified hardrock mining as the most serious ecological
             problem in the Region and has been a leader in using innovative
             approaches to solve difficult mining related problems.


CONCLUSION   While EPA has no comprehensive authority to regulate mining, it does
             have CWA and RCRA authorities that it has or could develop to apply
             to help prevent pollution problems at individual mines. However, EPA
             did not always provide for adequate CWA NPDES oversight or technical
             assistance to some important mining states. Also, evaluation of
             environmental damages from mining indicates that the primary cause is
             RCRA mining wastes, but EPA had not developed a regulatory mining
             program under RCRA to address this problem. Until such time as these
             wastes are adequately regulated, long term environmental liabilities at
             mines will continue to increase. However, many mining states
             strengthened their mining regulations since 1985. Therefore, EPA
             should evaluate the adequacy of states’ regulations before developing a
             RCRA regulatory mining program. EPA should also improve the
             timing of its involvement in the NEPA process. EPA missed important
             opportunities to influence mining environmental performance standards
             and financial assurances. Organizational barriers, lack of a strong
             headquarters component, and the absence of a hardrock mining strategy

                              17               E1DMF6-08-0016-7100223
                            prevented EPA from being as successful as it might have been in
                            effectively addressing hardrock mining issues.


RECOMMENDATIONS               We recommend the OW Assistant Administrator coordinate with the
                              appropriate Assistant Administrators to:

                              3-1.   Provide for adequate mine site assessments before issuing
                                     NPDES permits to discharging mines in states where a region
                                     manages the NPDES program.

                              3-2.   Provide adequate oversight in states with authorized NPDES
                                     programs to help states effectively implement NPDES
                                     authorities at hardrock mines.


                              3-3.   Assess what further actions EPA can take to ensure it has fully
                                     utilized its existing authorities under RCRA to regulate active
                                     mines.

                              3-4.   Participate early in the NEPA process and adequately review
                                     NEPA environmental analyses for mines.

                              3-5.   Emphasize more timely EPA involvement with federal and
                                     state land management agencies’ field offices during the mine
                                     permitting process.

                              3-6.   Finalize a hardrock mining strategy and develop an
                                     implementation plan that includes resources, timeframes, and
                                     assignment of responsibility.


EPA COMMENTS AND EPA commented that it was not clear how pollution could be prevented
OIG EVALUATION   at hardrock mine sites without specific statutory authority. We believe
                 EPA has statutory authority that it has not fully used. For example, our
                 report discusses how EPA had not pursued mining regulatory
                 opportunities under its existing RCRA authority. In addition, EPA’s
                 draft hardrock mining framework included a variety of non-regulatory
                 tools that could be used to prevent pollution at hardrock mines.

                            EPA also stated that we had not considered the role of resource
                            availability in environmental management. EPA asked us to estimate
                            the additional resources required to implement our recommendations
                            and to identify potential locations of these resources. We believe our
                            recommendations can generally be implemented without significant
                            additional resources. For example, some of our most important

                                             18              E1DMF6-08-0016-7100223
recommendations concern the timing, rather than the amount, of EPA
staff involvement in the NEPA process. We acknowledge that resources
are limited and that EPA must direct its staff and budget to a wide range
of competing environmental program needs. Nonetheless, resource
determination and allocation to address serious environmental concerns
is a responsibility of EPA management.




EPA stated that the report recommendations are consistent with EPA’s
draft hardrock mining framework which emphasizes the importance of
identifying potential environmental concerns early in mine site planning
and permitting. Since EPA has not completed the EPA hardrock
mining framework, we are unable to evaluate whether the framework
will fully satisfy our recommendations.




                  19              E1DMF6-08-0016-7100223
THIS PAGE INTENTIONALLY LEFT BLANK.




                20        E1DMF6-08-0016-7100223
                                        Chapter 4

           MORE EFFECTIVE PARTNERSHIPS CAN HELP
           PREVENT MINING POLLUTION AND MINIMIZE
             GOVERNMENT FINANCIAL LIABILITIES
                            Partnering is an important part of EPA’s 5-year strategic plan and has
                            long been part of EPA’s overall regulatory strategy. Although federal
                            and state agencies had invited EPA to participate early in the mine
                            permitting process and some successes have been achieved, EPA has not
                            consistently availed itself of the opportunity. Partnerships with federal
                            and state agencies may be EPA’s best opportunity to minimize future
                            financial liability for mine cleanups using its Superfund responsibilities.


EPA'S STRATEGIC PLAN EPA’s mission advocates working with its
E M P H A S I Z E D partners to improve and preserve the                      EPA NEEDS TO
PARTNERING           environment. EPA’s current initiatives also              WORK IN
                     promote use of the best available science and            PARTNERSHIP
                     innovative and effective solutions to address            WITH ITS
                     environmental problems, such as the                      STAKEHOLDERS
                     environmental damage caused by hardrock                  .
                     mining. To accomplish this mission, EPA’s
                     strategic plan and other policy statements
                     advocate partnering with all stakeholders.

                            The New Generation of Environmental Protection: EPA’s Five-Year
                            Strategic Plan, dated July 1994, clearly recognized that environmental
                            protection has become increasingly complex and that all stakeholders
                            must work together to preserve and improve the nation’s environmental
                            quality. The plan stated that EPA will:

                                    help its partners carry out their responsibilities, working
                                    together to define respective roles....[and] to develop
                                    and implement more innovative,
                                    effective, and efficient approaches to environmental protection
                                    and sustainable development.



                            Another specific strategy was to “Create opportunities to establish
                            working partnerships among local, state, and federal levels of
                            government.”


                                              21               E1DMF6-08-0016-7100223
E A R L Y      E P A         EPA does not have a significant role in the issuance of operating permits
INVOLVEMENT     MAY          for mines. Effective partnerships with federal and state land
AVOID      UNFUNDED          management field personnel, where specific mine-related decisions are
LIABILITIES                  made, may be EPA’s best opportunity to prevent environmental
                             pollution and avoid substantial unfunded financial liabilities.

                             Although EPA has no statutory authority to require adequate financial
                             assurances at active hardrock mines, EPA has the responsibility to act to
                             protect public health and the environment. The Comprehensive
                             Environmental Response, Compensation, and Liability Act requires the
                             federal government to respond in cases where a hazardous substance
                             release or a substantial threat of release to the environment occurs.

                             Using its Superfund authorities, EPA has expended funds for mining
                             cleanups where mines were permitted without adequate performance
                             standards and financial assurances. At the Summitville mine site in
                             Colorado, EPA had to respond to an immediate threat of a catastrophic
                             hazardous waste release. EPA estimated the costs to remediate the site
                             at about $150 million, which does not include ongoing operation and
                             maintenance costs.


EPA NEEDS TO ACCEPT          EPA is currently engaged in several hardrock mining projects that
AND    SEEK    MORE          include a wide range of stakeholders. These projects demonstrate the
P A R T N E R S H I P        value of establishing effective partnerships. For example, Region 8 is
OPPORTUNITIES                working in partnership with other stakeholders on the Clear Creek
                             community-based watershed restoration project to protect the water
                             supply of over 250,000 people from mining impacts. Region 10 is
                             participating with other stakeholders in the Coeur d’Alene Basin
                             Restoration Project in northern Idaho to develop workable solutions to
                             repair an environment degraded by mining. Region 10 also entered into
                             a tri-state agreement to promote mining issues coordination with Idaho,
                             Washington, and Oregon. Headquarters participated in a workgroup that
                             developed an interagency agreement on mining, oil, and gas to improve
                             coordination with federal land management agencies. Although these
                             examples demonstrate that EPA can add value through establishing and
                             maintaining successful partnerships, it has missed other mining
                             partnership opportunities.

EPA Missed      Important Working in partnership with states is an appropriate role for EPA, but its
Opportunities             involvement has not always been timely or welcomed. For example,
                          according to the State, Region 5 did not respond early to Michigan’s
                          request for assistance in a copper mine permitting process, thereby
                          delaying the permit, causing increased costs, and adversely impacting
                          EPA’s relationship with the State. Also, Region 9 has not established
                          an effective working relationship with Nevada’s NPDES program staff.

                                               22              E1DMF6-08-0016-7100223
                              Nevada is a delegated state and does not welcome EPA participation
                              during its NPDES permitting process. California state officials told us
                              that Region 9 showed little interest in state hardrock mining issues.
                              Region 10 and Idaho officials disagreed on the frequency and value of
                              Region 10's involvement in developing an Idaho Joint Review Process
                              for mine permitting (an all-inclusive permitting team process). Alaska
                              state representatives told us that EPA was invited to participate on its
                              major mine permitting teams but seldom participated. EPA’s role is
                              undermined when it is not viewed as an effective partner.

EPA Could Add Value But EPA could help land management agencies
Lacks Expertise         by providing its technical expertise and      EPA
                        research capabilities. Land management        NEEDED TO
                        agencies do not always have adequate staff    BE VIEWED
                        or adequately trained staff needed to
                                                                      AS A
                        address all the environmental issues present
                                                                      PARTNER
                        when permitting and closing a large,
                        complex mine site. EPA’s participation
                                                                      THAT
                        could provide balance where the lack of       COULD ADD
                        staff or sufficient mining expertise          VALUE.
                        negatively impacts the development of
                        comprehensive performance standards and
                        financial assurances. For example, EPA agreed that it could have a
                        beneficial role assisting land management agencies in analyzing the
                        extent of contamination and estimating cleanup costs at a mine prior to
                        bond release. However, EPA must ensure that it has the resources and
                        technical expertise to respond.


                              Nationwide, EPA does not currently have adequate mining expertise to
                              effectively serve in a consultive role. EPA regional staffs acknowledged
                              that overall they lacked the resources necessary to properly develop and
                              nurture hardrock mining expertise and build working relationships.
                              Region 9, which has significant hardrock mining activities, has
                              dedicated few resources to address hardrock mining issues. On the other
                              hand, OSWER, OECA, and some regions, specifically Regions 8 and 10,
                              had dedicated some staff to work on hardrock mining issues. However,
                              most staff dedicated to hardrock mining worked on mining issues as an
                              adjunct to their primary responsibilities.


CONCLUSION                    Forging more effective partnerships is a good way for EPA to add its
                              resources and expertise to the process and avoid future adverse impacts
                              at mine sites. EPA should invest in preventing problems rather than
                              waiting until problems occur. If EPA chooses to be more proactive and
                              flexible, it could take advantage of many opportunities available to work

                                                23              E1DMF6-08-0016-7100223
                            in partnership with federal and state land management agencies to
                            address mine permitting issues including adequate financial assurances.


RECOMMENDATIONS             We recommend the OW Assistant Administrator coordinate with
                            appropriate Assistant Administrators to:

                            4-1.   Solicit advice from federal and state land managers as to how
                                   EPA could add greater value to the process and become involved
                                   earlier in the mine permitting process.

                            4-2.   Identify and inform EPA regional offices of ways they can
                                   become more proactively involved in hardrock mining
                                   environmental issues.

                            4-3.   Provide training and guidance to national and regional hardrock
                                   mining employees to improve their abilities to provide technical
                                   assistance to federal and state land management agencies and
                                   state environmental agencies in developing adequate
                                   environmental performance standards and financial assurances.



                            4-4.   Develop a critical core of dedicated cross-media mining
                                   expertise to work with and support federal and state land
                                   managers in a collaborative, consultive manner.



EPA COMMENTS AND EPA agreed that partnering opportunities should be fully utilized to
OIG EVALUATION   better manage mining activities. EPA noted that it had already taken
                 some steps, and agreed that further steps should be taken to broaden its
                 partnerships with state and federal land managers on both the national
                 and regional level.

                            EPA questioned whether it had missed important opportunities to work
                            with states and asked for specific suggestions as to what those
                            opportunities might be. We included some additional details in the
                            report on missed opportunities. Also, we believe that federal and state
                            land managers are best suited to help EPA identify how it could add
                            increased value to the process. We believe that almost any opportunity
                            that can be created to work with states on mining issues in the future is
                            an opportunity that should not be missed.

                            EPA commented that the draft hardrock mining framework
                            acknowledged the importance of forging effective partnerships with

                                              24              E1DMF6-08-0016-7100223
other stakeholders. EPA also agreed that developing those partnerships
are essential to the successful implementation of the framework. We
agree that the framework may address many of our concerns. However,
we cannot evaluate whether the framework fully satisfies our
recommendations until the framework is completed.




                 25              E1DMF6-08-0016-7100223
THIS PAGE INTENTIONALLY LEFT BLANK.




                26        E1DMF6-08-0016-7100223
                    APPENDIX I




27   E1DMF6-08-0016-7100223
28   E1DMF6-08-0016-7100223
29   E1DMF6-08-0016-7100223
30   E1DMF6-08-0016-7100223
31   E1DMF6-08-0016-7100223
32   E1DMF6-08-0016-7100223
                                                                              APPENDIX II
                                   SCOPE AND METHODOLOGY

Our review was limited to hardrock mines using the heap leaching method of ore extraction. To determine
if current federal and state statutory and regulatory requirements included environmental performance
standards and adequate financial assurances, we reviewed the statutory and regulatory authority of the
Forest Service, the Bureau of Land Management, and the States of Alaska, Arizona, California, Colorado,
Idaho, Montana, Nevada, and South Dakota. We relied on information included in a 1996 book authored
by the Environmental Law Institute entitled Hard Rock Mining: State Approaches to Environmental
Protection for an assessment of the statutory and regulatory authorities in the States of Arizona, Colorado,
Montana, Nevada, and South Dakota. This book contained a state-by-state review of statutes and
regulations applicable to hardrock mining. Other than the eight states listed above, we did not review the
statutory and regulatory authority of any other states engaged in hardrock mining. Nor did we review any
aspect of hardrock mining on tribal lands.

Although we reviewed federal and state statutory requirements, we did not attempt to assess the adequacy
of the performance standards or federal and state oversight for enforcing the standards. Therefore, if the
agency with primary responsibility for approving the hardrock mining permit application had authority
to require environmental performance standards, we considered the authority adequate for our purpose.

Because determining the adequacy of financial assurance is highly subjective, we only assessed whether
an agency had the regulatory authority to require a reasonable level of financial assurance. Depending on
the methods and level of expertise of agency staff, the level of financial assurance required can vary
dramatically. Both federal and state land management agencies we contacted stated that they did not
require financial assurance for every possible eventuality.

To determine whether EPA effectively used existing environmental statutes and regulations to prevent
mining pollution and minimize potential government financial liabilities, we reviewed EPA media-
specific authorities and discussed EPA’s implementation efforts with federal, state, and industry
representatives. Because EPA delegated implementation of its media-based authorities to states, we
assessed whether EPA performed oversight activities relative to mine permitting activities. We reviewed
EPA’s draft hardrock mining strategy. Also, we reviewed RCRA legislative activities to better understand
EPA’s RCRA authority limitations relative to hardrock mining. We assessed how EPA fulfilled its
administrative responsibility under NEPA to influence permitting decisions.

To determine whether EPA established effective partnerships to provide guidance in the development of
environmental performance standards and financial assurances, we discussed EPA's working relationships
with the federal and state land management agencies. We assessed EPA’s involvement with other federal
and state regulatory agencies responsible for the permitting and monitoring of active hardrock mines and
reviewed memorandums of understanding between agencies to understand how EPA could interact and
affect decisions. We reviewed various state joint mine permitting procedures and obtained other federal
agencies’ and states’ assessments of EPA staff availability and technical expertise to gauge EPA’s
effectiveness in influencing permitting decisions. We also evaluated EPA staff organizations and
capabilities to effectively participate in partnerships with other agencies.

                                                                                           APPENDIX III

                                                    33               E1DMF6-08-0016-7100223
                                    PRIOR AUDIT COVERAGE


Several government audit organizations, including GAO, DOI/OIG and USDA/OIG, have recently
conducted audits of the environmental impacts of hardrock mining and of EPA's working relationships.

A June 1991 GAO report, MINERAL RESOURCES, Increased Attention Being Given to Cyanide
Operations (GAO/RCED-91-145), examined: (1) the hazards of cyanide operations to wildlife and the
environment on federal land, and (2) the existing laws and regulations governing these operations. The
report recommended that USDA direct the Forest Service to develop and implement an agencywide policy
specifically aimed at managing cyanide operations on Forest Service land.

In September 1991, DOI/OIG issued a report entitled Noncoal Reclamation, Abandoned Mine Land
Reclamation Program, Office of Surface Mining Reclamation and Enforcement (91-I-1248), evaluating
the reclamation program's effectiveness in correcting health and safety hazards and environmental
problems associated with abandoned noncoal mines. Among other findings, the audit concluded that
reclamation was inadequate and funding was insufficient and recommended DOI seek legislation to
establish a fee on noncoal mining to reclaim abandoned mine sites.

A March 1992 DOI/OIG report, Hardrock Mining Site Reclamation, Bureau of Land Management (92-I-
636), found that the Bureau of Land Management had not adequately implemented procedures for
ensuring abandoned mine sites were reclaimed. The report made five recommendations, one of which was
that the Bureau of Land Management amend its bonding regulations to require that all operators post
financial guarantees commensurate with the size and type of mining operation.

In April 1995, a GAO report, EPA AND THE STATES, Environmental Challenges Require a Better
Working Relationship (GAO/RCED-95-64), disclosed that EPA was inconsistent in its oversight, micro-
managed state programs, did not provide sufficient technical support, and did not adequately consult with
states before making decisions. GAO recommended EPA work with states on consistency, oversight,
flexibility, and communications.

A February 1996 GAO report, FEDERAL LAND MANAGEMENT, Information on Efforts to Inventory
Abandoned Hard Rock Mines (GAO/RCED-96-30), concluded that no definitive inventory was available
of the number of abandoned hardrock mines located on federal lands. The report discussed the range of
estimates made by federal agencies and others on the number of mines and the costs to clean up the
problem sites.


Most recently, a March 1996 USDA/OIG report, Forest Service Management of Hazardous Material at
Active and Abandoned Mines (08601-1-At), found that the Forest Service did not have the authority to
suspend mining operations if a mine operator was not in compliance with the plan of operation, the Forest
Service had not inspected many of the mines as required, many sites were not reclaimed by the operators,
and bonds were inadequate to cover the costs. The report recommended that USDA seek authority to shut
down mine operations when violations are not corrected, inspect mines under approved plans of
operations, and review bonds annually and increase them as needed.


                                                  34               E1DMF6-08-0016-7100223
   .                                                                    APPENDIX IV

                                ABBREVIATIONS



CWA     Clean Water Act
DOI     U. S. Department of the Interior
EPA     Environmental Protection Agency
GAO     General Accounting Office
NEPA    National Environmental Policy Act of 1969
NPDES   National Pollutant Discharge Elimination System
NPL     National Priority List
OECA    Office of Enforcement and Compliance Assurance
OIG     Office of Inspector General
OSWER   Office of Solid Waste and Emergency Response
OW      Office of Water
RCRA    Resource Conservation and Recovery Act
USDA    U.S. Department of Agriculture




                                        35                E1DMF6-08-0016-7100223
THIS PAGE INTENTIONALLY LEFT BLANK.




                36        E1DMF6-08-0016-7100223
                                                                                  APPENDIX V


                                         DISTRIBUTION


Office of Inspector General
       Inspector General (2410)
       Deputy Assistant Inspector General for
         Internal Audits (2422)

EPA Headquarters

       Assistant Administrator for Solid Waste and
        Emergency Response (5101)
       Assistant Administrator for Enforcement and
        Enforcement and Compliance Assurance (2201A)
       Assistant Administrator for Administrative and Resource
        Management and Chief Financial Officer (3101)
       Associate Administrator for Congressional and Legislative Offices (1301)
       Associate Administrator for Regional Operations and
        State/Local Relations (1501)
       Associate Administrator for Communications, Education, and
        Public Affairs (1701)
       Agency Audit Followup Coordinator (3304)
       Agency Audit Followup Official (3101)
       Director, Program and Policy Coordination Office (3102)
       Office of Congressional Liaison (1302)
       Office of Public Affairs (1707)
       Headquarters Library (3304)

EPA Regions
     Regional Administrators, Regions 1-10
     Regional Audit Liaison Coordinators, Regions 1-10




                                                37              E1DMF6-08-0016-7100223
